                      Federal Emergency Management Agency
                                Office of Inspector General – Audits Division
                                        Western District Audit Branch
                                         1111 Broadway, Suite 1200
                                       Oakland, California 94607-4052



                                          December 6, 2002


MEMORANDUM FOR:             John E. Pennington
                            Regional Director, Region X




FROM:                       Robert J. Lastrico
                            Western District Audit Manager

SUBJECT:                    Performance Audit Report: Management of FEMA
                            Disaster Grants Awarded Under the Stafford Act
                            Idaho Bureau of Disaster Services
                            Audit Report Number W-04-03

Attached for your review and follow-up action are three copies of the subject audit report. In
summary, the audit determined that the State of Idaho, Military Division, Bureau of Disaster
Services (BDS) could improve certain program procedures associated with the administration of
disaster assistance funds.

On November 18, 2002, you responded to the draft report stating that Region and State actions
have been taken or planned to implement the recommendations in the report. Your responses
have been summarized in the body of the report and are included verbatim as Exhibit B.

We would like to thank your staff and the BDS staff for the courtesies extended the auditors
during their fieldwork. Should you have any questions concerning this report, please contact
Brian Byrne or me at (510) 627-7011.
